Office of
~NSPECTOR GENERAL

I=:=:Report: - -

 Audit of Property and Supplies Management




 Report No. IG-04-94




                                      August 1994
                                        Date Issued
         INSPECfOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, D.C. 20436


August 26, 1994


                   AUDIT OF PROPERTY AND SUPPLIES MANAGEMENT


The Budget and Accounting Procedures Act of 1950 states that agencies must
establish and maintain systems of accounting and reporting that provide for
effective control over property and other assets.      This audit of property
management was scheduled in accordance with Federal regulations followed by the
Commission that detailed evaluations of agency financial systems shall be
conducted on a cyclical basis of every three years.    A prior audit report on
property management was issued in November 1991; supplies management was not
included in the scope of that audit.

The objectives of this audit were to: determine whether proposed actions agreed
upon by management in response to the prior property management review had been
implemented and adequately addressed the findings; and evaluate and determine
the economy and efficiency of the property and supplies management functions.

The audit was conducted by Urbach Kahn and Werlin in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The audit results are presented as an attachment to this report.

The audit report on property management issued in November 1991 identified two
material weaknesses. 1) A large amount of property was recorded on the master
property list with location codes that did not represent actual physical
locations.  2) Property pass procedures were not always followed.    In addition
to the material weaknesses, the auditors identified numerous other conditions
in the inventory process, property transfer and disposal, and general property
management that needed improvement.   A number of recommendations were made to
correct the weaknesses. As part of the corrective actions, a significant number
of low value items that could not be located were deleted en masse from the
master property list. In September 1992, the Director of Administration reported
that final action had been completed on all recommendations.

Despite the actions taken in response to the prior report, the auditors have
again found that the master property list is not accurate. The current status
of the property management system can be simply described as no different than
November 1991 except that there is significantly less property in the system.
Even the Property Management Officer (PMO) stated that the inventory data was
useless and there were serious weaknesses in the maintenance of ADP equipment
property action forms.
One of the most basic controls in a property system is to have completed an
annual inventory, meaning that accountable officers review the master property
list provided by the PMO and all differences are reconciled, resulting in a final
accurate list.   The Commission has had a requirement for an annual inventory
since 1988.    In the prior audit, we found that an inventory had not been
completed in calendar years 1989, 1990, or 1991. Now, 1992 and 1993 can be added
to those dates.

Another significant control in a property system is the use of documentation to
track the transfer of property.      This aspect of the Commission's system was
significantly changed from the previous system after the last audit. To reduce
the burden on managers, only changes between accountable officers had to be
documented - - not every change of location. The losing office has responsibility
for initiating the form used as documentation for a property transfer. However,
we found that this responsibility was not well understood, especially for
computer equipment and the forms were maintained in such a manner that they could
not be readily matched to transfers. According to the PMO, accountable officers
frequently did not complete the transfer forms resulting in the serious problems
with the master property list accuracy.

Even though the PMO was aware that the property system had serious weaknesses,
he did not bring them to management's attention for action. The PMO reported
no weaknesses, material or non-material, in the letters of assurance submitted
as part of the FYs 1992 and 1993 internal control processes, indicating that
the system of controls as reported in September 1992 was working properly. The
Director of Administration said that he was not aware of the weaknesses. The
PMO said that he understood that only weaknesses in the system of controls had
to be reported, not that management officials outside of his control were not
complying with the controls. We believe that the PMO was obligated to report
that he was unable to confirm the accuracy of the master property list and
identify the lack of compliance as a cause.

Recommendations to address the weaknesses include temporary quarterly rather
than annual reconciliations, improving controls over movement of property, and
a training program (page 14).   We also believe the results of the quarterly
reconciliations should be reported to the Chairman.

The auditors found similar problems with the supply inventory system: inaccurate
records, poor space utilization, and inadequate separation of duties. Rather
than revise the current system, we believe the Commission should implement a
contracting system for the distribution of office supplies (pages 9 and 10).
This system should provide the same or better service to the customers and
benefit the Commission as more efficient to operate.

The Director of Administration generally agreed with the findings and
recommendations as stated on pages 10 and 14 of the report. The Director's
comments are included in their entirety as an appe~t~~A


                                                ~ AltenhOf~n~YI
                                                      E.
                                                 Inspector General
        UNITED STATES INTERNATIONAL
             TRADE COMMISSION

REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                APRil 1994




~ Urbach Kahn & Wedin PC
~w    CERTIFIEDPUBLICACCOUNTANTS
               UNITED STATES INTERNATIONAL TRADE COMMISSION

               REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT


                                 CONTENTS




INDEPENDENT ACCOUNTANT'S REPORT                               1


SECTION I:         BACKGROUND                                 2


SECTION II:        OBJECTIVES, SCOPE AND METHODOLOGY          3


SECTION III:       RESULTS OF PROCEDURES                      6


SECTION IV:        FINDINGS AND RECOMMENDATIONS               9


SECTION V;         OTHER MATTERS AND SUGGESTIONS              15



Appendix:          ADMINISTRATION'S RESPONSE TO THE
                   DRAFT REPORT
INDEPENDENTACCOUNTANT~
                REPORT
H~ Urbach Kahn & Wedin PC
~w   CERTIFIED PUBLIC ACCOUNTANTS

                                INDEPENDENT ACCOUNTANT'S REPORT




     UNITED STATES INTERNATIONAL TRADE COMMISSION
     Office of Inspector General



     We have performed certain agreed-upon procedures related to the property and supplies
     management functions within the United States International Trade Commission (USITC). The
     procedures, identified in Section II of this report, were performed in accordance with Government
     Auditing Standards and were agreed to by USITC's Office of Inspector General. The procedures
     were performed solely to assist USITC in evaluating and determining findings regarding the
     economy and efficiency of the property and supplies management functions and determine
     whether proposed actions agreed upon by management in response to the prior property
     management recommendations have been implemented and adequately address the findings.

     The objectives, scope and methodology are discussed in Section II of this report.

     We considered USITC's internal control structure solely for the purposes of planning and
     performing the agreed-upon procedures and not to provide assurance on any segment of the
     internal control structure or the structure taken as a whole. The matters which came to our
     attention relating to significant deficiencies (material weaknesses) in the design or operation of
     relevant segments of the internal control structure are reported as findings 1) and 2) in Section IV
     of this report.

     This report is intended solely for the information of USITC. This restriction is not intended to limit
     the distribution of this report, which is a matter of public record.




     Washington, DC
     April 1, 1994




                                                             - 1 -
                                      GOVERNMENT AUDIT AND CONSULTING GROUP
                      1200 Seventeenth Street NW, Washington, DC 20036 (202) 296-2020 FAX (202) 223-8488
   SECTION I

BACKGROUND
               UNITED STATES INTERNATIONAL TRADE COMMISSION

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                                         BACKGROUND



Introduction

The United States International Trade Commission (USITC) is an independent, quasi-adjudicative
agency of the United States Government established by Act of Congress. USITC, among other
functions, conducts investigations under several statutory authorities with respect to the impact
of imports on domestic industries, and, upon request, provides advice to the President and
Congress on tariff and trade matters.

USITC has a full-time permanent staff of approximately 450 individuals, with budget appropriations
for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000, respectively.

Properly and supplies management

The Budget and Accounting Procedures Act of 1950 states that agencies must establish and
maintain systems of accounting and reporting that provide for effective control over property and
other assets. These systems are reviewed on a three year cycle in accordance with OMB
Circulars.

Property and supplies management is the responsibility of USITC's Office of Management Services
(OMS). OMS tracks electronic equipment and supplies used by USITC employees at its
headquarters at 500 E Street SW. USITC also has a storage facility in Forestville, Maryland leased
from the General Services Administration (GSA) for surplus and excess furniture and other
equipment.

As of September 30, 1993, fixed assets were valued at $7.7 million. Office supplies purchased
for the year ended September 30, 1993 totaled $323,249. Supplies purchased by the Office of
Information Services (OIS), consisting primarily of software costs and replacement parts,
amounted to $145,708 for the same period.

The last review of property management services was completed in November 1991. The results
included two material weaknesses relating to property inventory and the property pass system.




                                              -2-
            SECTION II

OBJECTIVES, SCOPE AND
        METHODOLOGY
                UNITED STATES INTERNATIONAL TRADE COMMISSION

                 REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                          OBJECTIVES, SCOPE AND METHODOLOGY




Objectives

Urbach Kahn & Werlin PC (UKW) was engaged to evaluate the properties and supplies
management functions within USITC. The objectives of this engagement were to: evaluate and
determine the economy and efficiency of the property and supplies management functions and
determine whether proposed actions agreed upon by management in response to its prior property
management review have been implemented and adequately address the findings.

Scope

UKW conducted the engagement from March 21 to April 1, 1994 at the offices of USITC in
Washington, DC. UKW's engagement staff interviewed numerous USITC employees involved in
the property and supplies management functions.

Methodology

The general procedures performed by UKW were as follows:

•   Reviewed report #16-01-92, Audit of Property and Management and determined the findings
    which needed to be evaluated during the current engagement. Reviewed and evaluated
    management's responses and proposed actions.

•   Reviewed related Federal and/or USITC guidance including:

    .I   Directive 1022. 1, Office of Management Services Mission and Function Statement
    .I   Directive 3550. 1, Property Management: Policies and Procedures

•   Identified and interviewed key personnel in the Office of Management Services (OMS)
    responsible for property and supply management.

•   Determined the valuation of fixed assets as of September 30, 1992 and 1993.

•   Reviewed procedures for identification, tagging, and tracking of physical inventories of fixed
    assets and supplies.

•   Selected a sample of accountable areas and performed the following procedures:

    .I   Determined whether inventories were performed adequately and timely by the Accountable
         Officer and the Property Management Officer.
    .I   Reconciled the most recent physical inventory list to the Master Property List .
    .I   Independently conducted an inventory of property and compared the results to the OMS
         inventory reconciliation.

•   Determined property on the Master Property List had a valid location. If not, we attempted to
    locate the items to confirm that the property is in use.


                                               -3 -
                   UNITED STATES INTERNATIONAL TRADE COMMISSION

                       REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                              OBJECTIVES, SCOPE AND METHODOLOGY



•   Analyzed a sample of ITC Form 110s and determined if property transfers were properly
    handled.

•   Tested barcode numbering method to determine its effectiveness.

•   Evaluated whether the Property Pass procedures are followed, with regards to whether the
    Property Pass is filled out and properly signed and whether the security guards understand the
    procedures and use of the form.

•   For a sample of property disposed of, determined:

    '"   the effectiveness and appropriateness of the decision criteria.
    '"   compliance with the stated procedures, particularly documentation.

•   Determined if the SF121 s were completed in a timely manner in accordance with the Federal
    Property Management Regulation for fiscal years 1992 and 1993.

•   Determined if Directive 3550.1 and other changes to property management procedures
    adequately address the findings of the prior audit report.

•   Interviewed seven accountable officers (ADs) or his/her designee through the use of a
    questionnaire to evaluate the level of compliance with respect to property management and
    supplies management. The interviews were conducted in the following offices:

    '"   Office   of   the General Counsel
    tI   Office   of   Operations
    tI   Office   of   Economics
    '"   Office   of   Management Services
    tI   Office   of   Industries/Chemicals and Textiles Division
    tI   Office   of   Industries/Machinery and Transportation Division
    '"   Office   of   Industries/Minerals, Metals and Miscellaneous Manufacturing Division

•   Determined how supplies are defined, where they are located, and how they are tracked or
    accounted for.

•   Assessed the internal controls over supply management and discuss them with staff from OMS
    and 015.

•   Evaluated the policies and procedures for stocking and disbursement of supplies.

•   Evaluated the economy and efficiency of the supply function with emphasis on procurement,
    documentation/accountability, and allocation.

•   Determined if charge cards are used to the maximum extent to purchase supplies and the
    extent to which individual purchase orders are issued for supply items.


                                                   -4 -
                UNITED STATES INTERNATIONAL TRADE COMMISSION

                 REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                          OBJECTIVES# SCOPE AND METHODOLOGY




•   Sampled supply items and performed an inventory count to determine the location of goods.

•   Determined potential alternatives to providing supplies and performed cost benefit analyses of
    those alternatives against the current system.

•   Performed a site visit to the Forestville, Maryland USITC storage facility to inspect
    excess/surplus property and supplies.




                                               -5 -
            SECTION III

RESUL TS OF PROCEDURES
               UNITED STATES INTERNATIONAL TRADE COMMISSiON

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                                  RESULTS OF PROCEDURES




Supplies

USITC maintains an attended supply room for all generic office supplies (office supplies) which is
open to all USITC personnel. The supply room attendant is responsible for safeguarding the
inventory, ordering supplies through GSA, stocking supplies, and maintaining the perpetual
inventory record keeping system. OIS maintains computer related supplies which are also available
to all USITC personnel (OIS supplies). The Printing Branch maintains copier and printing supplies
such as paper, toner, and ink (print branch supplies). The fiscal year 1993 budgeted amounts for
supplies were as follows;

               Office supplies and print branch (Note 1)              $352,500
               01S supplies, including software and
                hardware replacement parts                            $150,000

               Note 1: The budget and expenditures were not segregated by supply room
               and print shop supplies. OMS estimates the supply room accounts for
               approximately $50,000 of the $352,500.

As discussed in Finding 1, the tracking systems employed by ITC for monitoring supply inventories
are not properly maintained or do not provide for effective control over the supplies.

As part of our review we considered alternatives to GSA for the procurement and distribution of
office and paper supplies to ITC that might provide cost-effective solutions to the supply inventory
matters discussed in this report. The results of our analysis are as follows:

There are several independent companies that specialize in contracting Just In Time (JIT)
distribution of office supplies to federal government agencies. UKW's analysis was based on a
review of the executed contract between Boise Cascade and the Smithsonian Institution provided
to ITC by Boise Cascade, catalogues and price lists, and discussions with ITC management.

Although the JIT system can provide an array of options, the general process would begin with
the contractor providing to ITC a catalogue with a comprehensive listing of office supplies
available. Each office within ITC would send an e-mail to OMS with its request. The ordering
process would be centralized in OMS with OMS ordering through the contractor's own ordering
system electronically. The contractor would then deliver the requested supplies directly to the
ordering office within ITC.

Our analysis found the following benefits of JIT as compared to the current system:

A)     The catalogue prices of office supplies through JIT are generally less expensive than GSA.
       JIT's fee structure also includes delivery, training for electronic ordering entry, catalogues,
       and cost reporting at no additional charge. Further, JIT does not require any initiation or
       start up costs.




                                                -6 -
               UNITED STATES INTERNATIONAL TRADE COMMISSION

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                                  RESULTS OF PROCEDURES




B)     It would no longer be necessary for ITG to maintain a significant amount of inventory. As
       such, less space would be required for inventory storage and less exposure to loss or
       shrinkage would exist.

G)     A full-time supply room attendant would not be necessary. OMS estimates that one-half
       of the attendant's time would continue to be required for JIT in order to collect and
       process orders.

D)     The conditions discussed in the report, such as ITG personnel not adequately trained in
       perpetual inventory maintenance, the lack of an adequate perpetual inventory system, and
       the segregation of duties concern (the same individual who maintains all inventory records
       also maintains physical access) would be eliminated since JIT would eliminate the need to
       maintain inventory.

E)     JIT could provide cost accounting reports which ITG is currently unable to generate.

F)     The JIT system would comply more fully with the EOO principle set forth in 41 GFR,
       Chapter 101-27.

However, our analyses found the following drawbacks of JIT as compared to the current system:

A)     The majority of ITG personnel interviewed were content with the current system, and
       enjoyed the convenience of the supply room providing necessary supplies on a walk-in
       basis. The JIT 24-hour delivery time may result in some ITC personnel incurring a delay
       in obtaining some supplies.

B)     An internal control weakness could exist if the same individual who sends an e-mail to
       OMS for a request also accepts the delivery order.

C}     lTC's current budgetary system does not provide for an allocation of the supplies budqst
       among the various offices and thus, cannot fully utilize the cost reporting functions in
       conjunction with the budget. Although the budget line item for supplies is relatively small,
       ITC could consider a more limited evaluation of JIT's cost accounting reports which might
       provide OMS with the necessary information on departmental supply usage to adequately
       monitor the supply budget.

Property

Although OMS is responsible for overall management of property and equipment within USITC,
this responsibility is shared with the Accountable Officers (ADs) within ITC who, according to
USITC Directive 3550.1, " ... are responsible for...protecting and efficiently using all government
property within his/her specifically defined organizational area."

In addition, certain property within ITC is monitored through the use of a Master Property List
(MPL). Under ITC policy, property included on this MPL includes personal computer CPUs, laptop


                                               -7 -
               UNITED STATES INTERNATIONAL TRADE COMMISSION

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                                  RESULTS OF PROCEDURES




computers, VCRs, televisions, facsimile machines and video cameras and as of March 1994
consisted of approximately 750 items.

In order to properly reflect transfers of assets on the MPL, the AOs are required to complete and
remit to the Property Management Officer (PMO) USITC Form 110 (110) when trackable property
is transferred from one accountable area to another. The PMO then updates the MPL using the
110s.

At the end of each fiscal year, the PMO has 30 days to provide each AO with a listing of property
for which the PO is responsible. Each AD must then perform a physical inventory of their
respective area to verify the accuracy of the MPL and report any discrepancies to the PMD.

As discussed in Finding 2, inadequate controls over ITe Form 110s, which document the
movement of accountable property, and inadequate and untimely MPL reconciliations have resulted
in a significant weakness in the overall control procedures relating to property management. Since
the current system cannot be relied upon to adequately control accountable or trackable property
as designed, we consider this situation to be a material weakness in USITC's internal control
structure.

However, our review also revealed that procedures relating to the reporting of excess or surplus
property to GSA and the use of charge cards for the procurement of supplies were in compliance
with GSA regulations and ITC policies.



The following sections outline our specific findings and recommendations and other matters related
to the management of properties and supplies identified during our review.




                                               -8 -
                   SECTION IV

FINDINGS AND RECOMMENDA TIONS
                UNITED STATES INTERNATIONAL TRADE COMMISSION

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                           FINDINGS AND RECOMMENDATIONS




1)   SUPPL Y INVENTORY SYSTEM COULD BE ENHANCED WITH IMPLE-
     MENTA TION OF SYSTEMS OFFERED BY OUTSIDE SUPPLIERS

     Condition

     Our review identified the following findings:

     Office supplies: The supply room attendant maintains perpetual inventory records on a
     Dbase computer program. Quantities for nine items (out of ten counted) did not agree with
     the perpetual inventory records.

     Office supplies were also stored in two additional locations: the USITC parking garage and
     an USITC storage unit located in Forestville, Maryland. The contents of parking garage
     appeared disorganized and the quantity of supplies in the Forestville-storage unit did not
     appear to be significant. We believe with reorganization, additional space could be made
     available in the garage for use in lieu of the storage unit in Forestville.

     We also noted a weakness regarding the segregation of duties in the supply room as the
     supply room attendant is responsible for maintaining the perpetual inventory system and
     also has physical access to the supplies.

     Print branch supplies: The print branch maintains manual inventory records and performs
     a physical inventory semi-annually (for non-xerox paper supplies) and bi-monthly (for xerox
     paper). The methodology used consists of adding the prior inventory for each item to the
     quantities received for the period, then subtracting this amount from the actual count.
     The difference is assumed to be the quantity of supplies consumed. This process does not
     provide for any reconciliation procedure which would identify unauthorized use of paper
     supplies.

     Criteria

     USITC Directive 1022.1, states as a function of OMS, " ... orders, maintains, and controls
     a supply inventory... " Additionally the directive states that OMS is, " ... accountable for the
     physical protection of all Commission assets ... "

     41 CFR, Chapter 101-27.101 states, "Each agency shall establish and maintain such
     control of personal property inventories as will ensure that the total cost involved will be
     kept to the minimum consistent with program needs ... " Additionally, Chapter 101-27.102
     states, nAil executive agencies, ...shall replenish inventories of stock items having recurring
     demands, except items held at points of final use, in accordance with the economic order
     quantity principle. The economic order quantity (EOO) principle is a means for achieving
     economical inventory management. Application of the EGO principle reduces variable costs
     of procurement and possession to a minimum ... n
         UNITED STATES INTERNATIONAL TRADE COMMISSION

          REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                      FINDINGS AND RECOMMENDATIONS




Cause

With respect to office supplies, it appears that the Dbase perpetual inventory program is
not fully understood or properly operated by the users. Additionally, because the Dbase
program was developed by USITC, it is not as user friendly as commercial software. The
Print Branch has not converted to a computerized perpetual system.

Since USITC does not expend a significant amount of the budget on the supply room, or
generate voluminous activity, OMS does not consider further segregation of duties
necessary.

Office supplies were stored in the two additional areas due to the limited space in the
supply room. OMS indicated that office supplies have since been removed from the
Forestville location.

Effect

Inadequate supply inventory controls creates the potential for misappropriated supplies.
Additionally, inaccurate schedules of supplies available limits the efficient management of
supplies.

Recommendation

Considering the results of our analysis as discussed in Section III of this report, we
recommend that the Director, OMS:

1.       Implement a non-GSA independent Just In Time (JIT) contracting system for the
         procurement and distribution of office supplies and implement appropriate control
         procedures within ITC for purchasing and budget management. OMS should
         maintain small inventory levels of items which might cause problems if not
         delivered timely.

2.       Assume responsibility for supplies distributed by DIS to other offices within ITC and
         amend Directive 1031, Mission and Functions Statement for the Office Support
         Division of DIS, to reflect this change.

Commission's Response

The Commission generally agreed with the above recommendations.




                                        - 10 -
            UNITED STATES INTERNATIONAL TRADE COMMISSION

                REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                         FINDINGS AND RECOMMENDATIONS




2)   MASTER PROPERTY LISTING IS NOT ACCURA TE

     Condition

     During UKW's physical inventory observation procedures, we compared the physical
     property barcode number to the MPL barcode number for approximately 78% (588 of 750
     total) of the items on the MPL. We found the following number and type of discrepancies:

     t/     73 of the 588 (12%) of the items on the MPL were not located in any of
            the areas UKW observed during the physical inventory.

            Possible explanations for the items not observed are as follows:

            •    Some of the items could be in a location not visited by UKW during the
                 physical inventory. As such, the property 110 documentation was not
                 completed to reflect property transfers of these items.

            •    Some of the items could have been determined excess/surplus or traded-in;
                 however, did not have the proper 110 documentation completed. As such,
                 these items would improperly appear in the MPL.

            •    Some of the items could have had an incorrect barcode number on the MPL.

     Due to the number of exceptions found, we summarized and compared all of the property
     listings provided by the ADs to the MPL. Since all ADs or his/her designees implemented
     a physical inventory in March 1994, the individual listings should have represented the
     entire physical inventory within USITC subject to the MPL. 64 of the approximately 750
     items were not reported by any of the ADs or his/her designees as follows:

                    Description of Property             Asset Items Not Located

                   486 personal computer CPUs                         6
                   386 personal computer CPUs                        27
                   AT personal computer CPUs                         28
                   Facsimile machines                                ~

                                                                     64
                                                                     =

     t/     102 of the 588 (17%) of the items on the MPL were found by UKW during the
            physical observation, but were not found in the location indicated on the MPL. This
            is a result of 110 documentation not completed to reflect property transfers.

            17 trackable items were physically observed with a barcode number but the items
            and corresponding barcode number were not on the MPL.



                                           - 11 -
           UNITED STATES INTERNATIONAL TRADE COMMISSION

            REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                        FINDINGS AND RECOMMENDATIONS




           12 property items were physically observed lacking barcodes.     These 12 items
           were trackable items which should have been barcoded.

,/         Three property items on the MPL had an invalid location indicated on the MPL.

We also found ITC does not consider cameras or printers to be trackable items subject to
the MPL. Since these items are relatively expensive and/or portable and are similar to other
property currently deemed trackable, we believe ITC should consider them as trackable
items subject to the M PL.

Further, for fiscal year 1993, the property listings should have been provided by the PMO
to the AOs by October 31, 1993 but were not distributed until February 28, 1994. We
also noted that of the inventory listings returned to the PMO, 18 were not signed or signed
by an individual other than the AO and 9 did not date the forms.

Interviews with the AOs or their designee found that the AOs generally did not designate
individuals on a consistent basis (i.e., different designees assigned each year).

Criteria

USITC Directive 3550.1, part 6f, states, " ... Accountable Officers (AOs) are responsible for
-- (1) Protecting and efficiently using all Government property within his/her specifically
defined organizational area. (2) Tracking of all items in his/her area which are included in
the ... official property list [MPL). .. (4) Notifying the office with 'central' maintenance
responsibilities, e.g., OMS or OIRM [015] when property is relocated and notifying OMS
whenever any property listed on their inventory is relocated out of the ADs accountable
area... "

USITC Directive 3550.', part 11, states, " ... When property which appears on an AOs
inventory list is transferred from one accountable area to another, such transfer must be
recorded on an USITC Form 110, Property Action Form ... A copy of the USITC Form 110
must be forwarded to the PMO [OMS] for recording in the master system [MPL]. Failure
to document a transfer may lead to the AD being held financially responsible for the
missing item... "

USITC Directive 3550.1, part 6b, states, " ... The Property Management Officer (PMO)
[OMS] is responsible for -- (1) Providing overall supervision and technical direction of the
property management system for the USITC ... (5) Maintaining a record of and periodically
verifying the AOs' inventories ... "

USITC Directive 3550.1, part Te, states, " ... By October 31 of each year, the PMO will
provide all AOs a listing of all personal charge property assigned to their accountable area.
Annually, by January 31 , each AO or his/her designee will perform a physical inventory and
provide the PMO with a listing of all property assigned to that office which reflects any
additions or deletions made during the previous calendar year. AOs must ensure the


                                        - 12 -
         UNITED STATES INTERNATIONAL TRADE COMMISSION

         REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                     FINDINGS AND RECOMMENDATIONS




procedure outlined in paragraph 11, Reassignment of Personal Property, to record changes
to their listings is followed ... "

Cause

The majority of the ADs or his/her designee submitted property listings with property items
crossed out for items no longer in his/her accountable area. Conditions which would result
in items no longer bein-g in an ADs accountable area would be if the property was
transferred to another department or the property was determined excess or surplus, and,
therefore, turned over to either OMS or OIS as appropriate. Additionally, the listings
indicated manual additions for property items which were in his/her accountable area, but
were not on the MPL.

If procedures were followed, the ADs would provide 11Os to OMS, OMS would enter the
transfers into the MPL system, resulting in the AOs having to make minimal manual
deletions or additions to his/her property listing, but the AOs did not maintain support (ie.
110s) for deletions or additions making verification difficult. The AOs or his/her designee
indicated that because 11Os are remitted to OMS, they did not retain copies.

In interviewing a sample of AOs or his/her designees, we found that some were either not
aware of the 110 or did not recall ever completing one. OMS indicated that if the item
was not transferred on the MPL to the proper accountable area, then it did not receive a
110. Consequently, it appears the cause of the inaccurate MPL is that property is
frequently moved within USITC, or property is determined to be surplus or excess without
proper 110 documentation generated or processed. Additionally, OMS's filing system for
110's is organized chronologically, rather than by office which does not provide for the
tracking of an asset to a 11O.

The PMO indicated that the property listings were not provided to the AO or his/her
designee until February 28, 1994 due to USITC recently completing the purchase of
approximately 500 new 486 personal computers. As such, the PMO preferred to defer the
physical inventory until all the new equipment was received, distributed and the MPL
updated.

In addition, the fiscal year 1992 physical inventory was initiated; however, the MPL was
not reconciled to the inventory reports.

Effect

USITC personal property is not adequately tracked. USITC is exposed to the potential for
misappropriated property.




                                       - 13 -
       UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                     FINDINGS AND RECOMMENDATIONS



Recommendation

We recommend that the Director, OMS:

3.     Revise USITC Directive 3550.1 to reflect the following changes:

       a.   Each AO or his/her designee should retain copies of all 110 forms until the
            physical inventory is verified by the PMO. When the AD or his/her designee
            receives the quarterly property listings, the 110 forms should be used to
            provide support for the items which were deleted.

       b.   The PMO should coordinate the completion of the ADs quarterly physical
            inventory listing with a periodic (at least annual) visual inspection to ensure all
            items reported by each AO are present and properly recorded on the MPL.

       c.   35mm cameras and printers should be included as trackable property. We also
            suggest the three cameras which we observed in the OMS Design Branch be
            rebarcoded.

4.    Inventory the MPL quarterly rather than annually for one year so that the
      reconciliation process with the ADs can be performed on a more timely basis.
      Once all of the 110 forms are processed, the AO or his/her designee should
      promptly receive a revised property listing. This will provide the AD or his/her
      designee an opportunity to correct entries which may have been overlooked or
      entries which were not processed properly by OMS. The results of the quarterly
      inventory should be reported to the Chairman.

5.    Provide for a property management training program for all ADs, alternates and
      custodians. This might be conducted in conjunction with the inventory observation
      procedures recommended above.

6.    Remind the ADs they are ultimately responsible for property assigned to their area
      and may be held financially accountable for property lost or misplaced and
      encourage the AOs to use the same individual from year to year, if practical.

7.    Consider implementing color coded barcodes to segregate trackable property from
      other barcoded equipment.

Commission's Response

The Commission generally agreed with each of the above recommendations.




                                        - 14 -
                     SECTION V

OTHER MA TTERS AND SUGGESTIONS
             UNITED STATES INTERNATIONAL TRADE COMMISSION

             REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                         OTHER MATTERS AND SUGGESTIONS




1)   EXCESS/SURPLUS PROPERTY

     We observed excess/surplus property in the following locations:

     Forestville, Maryland:

            17 IBM XT personal computers; several pieces of peripheral computer equipment;
            USITC's old mainframe computer printer; and several obsolete adding machines,
            typewriters, and miscellaneous office equipment.

     Rooms 411 D and 41 1M (DIS):

            Several personal computers, monitors, keyboards, laser printers, modems, network
            equipment, file servers, disk drives and other miscellaneous peripheral equipment.

     Although the equipment in Forestville has been reported to GSA as excess, the equipment
     in rooms 411 D and 41 1M has not.

     We suggest OIS determine which equipment is excess, and immediately report such excess
     property to OMS. We further suggest that when this equipment is declared as excess by
     DIS, OMS transfer the equipment to the Forestville storage facility and report it to GSA.

2)   LAPTOP CONTROL PROCEDURES

     We reviewed the laptop control procedures for all departments which had 5 or more
     laptops assigned. We found that in most offices, log-in/out sheets were adequately
     maintained and control procedures were adequate. However, we found DIS does not
     maintain a log which adequately identifies each laptop and its location.

     We suggest 015 develop a log-in/out sheet for the laptops assigned to staff within DIS as
     well as laptops returned for repair, upgrade, etc.

     015 concurred that it could do a· better job of tracking laptops. The problems were
     attributed to inaccuracies in the MPL, the reorganization of 015, and personnel vacancies,
     015 now has an accurate inventory of laptops and will maintain an accurate tracking log.

3)   PROPERTY PASS PROCEDURES

     In our judgmental selection of 25 property passes to review, we found that eight property
     passes were not completely filled out. Such omissions included the full names not
     provided, the department or agency not provided, and the dates that the passes were valid
     were not provided. Additionally, the property pass procedures for removing property from
     the USITC building were not diligently enforced by the security guards. UKW was able to
     walk out of the building with one of USITe's laptops visible without requiring a property
     pass. Furthermore, we asked an USITC staff member to walk out of the building with one


                                           - 15 -
              UNITED STATES INTERNATIONAL TRADE COMMISSION

               REVIEW OF PROPERTY AND SUPPLIES MANAGEMENT

                          OTHER MATTERS AND SUGGESTIONS


                 ,
       of our laptops and no property pass. He was not asked by the guard to provide a property
       pass. USITC staff and security personnel should be reminded of the policies and
       procedures regarding the property pass currently in place.

Commission Response

The Commission generally agreed with each of the above three suggestions.




                                            - 16 -
                                                               Appendix

                                                                          1

             ADMINISTRATION'S RESPONSE TO THE DRAFT REPORT
            ON THE AUDIT OF PROPERTY AND SUPPLIES MANAGEMENT


I.    AUDIT RECOMMENDATIONS REGARDING FINDINGS:


A.    SUPPLY INVENTORY COULD BE ENHANCED WITH IMPLEMENTATION OF
      SYSTEMS OFFERED BY OUTSIDE SUPPLIERS


RECOMMENDATION:

1.    Implement a non-GSA independent Just In Time (JIT)
      contracting system for the procurement and distribution of
      office supplies and implement appropriate control procedures
      within ITC for purchasing and budget management.

RESPONSE:    AGREE WITH COMMENT

Administration has been exploring this approach and asked that the
auditor analyze the methods a typical contractor uses to make
supplies available. The auditors found benefits and drawbacks to a
JIT contracting system and recommended its implementation.
Administration will take steps to implement the recommendation
taking into account the need to have a limited range of supplies on
hand since a JIT contractor delivers supplies no sooner than 24
hours. Additionally, the current supply clerk would need to be
reassigned to other duties.

The implementation effort will include Administration forming an ad
hoc group of representatives from various Commission offices to
assess the feasibility and cost effectiveness of the system. The
group will also explore whether the change to a new system should
begin as a pilot in selected offices.

TARGET COMPLETION DATE: January 30, 1995 (subject to approval and
                        availability of resources)

RECOMMENDATION:

2.    Assume responsibility for supplies distributed by OIS to
      other offices within ITC.

RESPONSE:     AGREE WITH COMMENT

It is recommended that OMS assume responsibility for OIS supplies
at the time that the JIT contract is implemented.

TARGET COMPLETION DATE:      January 30, 1995
                                                                      2

B.    MASTER PROPERTY LISTING IS NOT ACCURATE

RECOMMENDATION:

3.      Revise USITC Directive 3550.1 to reflect the following
        changes:

a.      Each Accountable Officer (AO) or hisfher designee should
        retain copies of all 110 forms until the physical inventory
        is verified by the PMO. When the AO or hisfher designee
        receives the quarterly property listings, the 110 forms
        should be used to provide support for the items which were
        deleted.

b.      The PMO should coordinate the completion of the AO's
        quarterly physical inventory listing with a periodic (at
        least annual) visual inspection to ensure all items reported
        by each AO are present and properly recorded on the MPL.

RESPONSE:     AGREE

Directive will be changed.

TARGET COMPLETION DATE:    November 30, 1994

RECOMMENDATION:

3c.     The 35mm cameras and printers should be included as
        trackable property. We also suggest that the three cameras
        we observed in the OMS Design Branch be rebarcoded.

RESPONSE:     AGREE

35mm cameras have already been added to the trackable property
inventory. Printers will be included in the end-of-year inventory
as of 9/30/94 with verification to the entire inventory by
10/31/94.

TARGET COMPLETION DATE:    October 31, 1994


RECOMMENDATION:

4.      Inventory the MPL quarterly rather than annually for one
        year so that the reconciliation process with the AOs can be
        performed on a more timely basis. Once all the 110 forms
        are processed, the AO or hisfher designee should promptly
        receive a revised property listing. This will provide the
        AO or hisfher designee an opportunity to correct entries
        which may have been overlooked or entries which were not
        processed properly by OMS. The results of the quarterly
        inventory should be reported to the Chairman.
                                                                    3


RESPONSE:   AGREE

Implementation of this recommendation should improve the accuracy
of the master property inventory since accounting for property that
has been relocated will be recorded more frequently (and timely) in
the master inventory and there will be fewer items to reconcile
from one inventory to the next. Agency-wide inventories were
initiated by the Property Management Officer during the period 1989
through 1993. However, they were not completed since there was not
proper 110 documentation for some of the property that had been
moved between the time that inventories were taken. More frequent
inventories coupled with the training of Accountable Officers (see
recommendation number 5) should provide the foundation for accurate
inventories.

As described on page 11 of the audit report 61 personal computers
and 3 facsimile machines were listed on the March 1994 master
property listing, but were not reported by any of the Accountable
Officers as being in their possession. Following this finding by
the auditors the Office of Information Services has located the
property and it will be accounted for in the first quarter
inventory.

Assuming completion of changes to USITC Directive 3550.1 by
November 30, 1994, the first quarterly inventory would take place
to cover the period ending December 31, 1994. In the interim, the
PMO recommends that the MPL items be rebarcoded with a different
color as suggested elsewhere in this report and that process
verified against a new print out by OMS and OIS.


TARGET COMPLETION DATE:   Ongoing


RECOMMENDATION:

5.    Provide for a property management tra~n~ng program for all
      AOs, alternates and custodians. This might be conducted in
      conjunction with the inventory observation procedures
      recommended above.


RESPONSE:   AGREE

The PMO will personally oversee the presentation of this material
to the named group.

TARGET COMPLETION DATE:   Concurrent with Recommendation 4.
                                                                  4

RECOMMENDATION:

6.     Remind the AOs they are ultimately responsible for property
       assigned to their area and may be held financially
       accountable for property lost or misplaced and encourage the
       AOs to use the same individual from year to year, if
       practical.

RESPONSE:   AGREE

The PMO will personally oversee the presentation of this material
to the named group. Strong support for this position by the Office
of the Inspector General, the Commission and senior management will
greatly assist the PMO.

TARGET COMPLETION DATE:    Concurrent with Recommendation 4.


RECOMMENDATION:

7.     Consider implementing color coded barcodes to segregate
       trackable property from other barcoded equipment.

RESPONSE:   AGREE

See discussion in recommendation 4.

TARGET COMPLETION DATE:    Concurrent with Recommendation 4.


II.    OTHER MATTERS AND SUGGESTIONS:

A.    EXCESS/SURPLUS PROPERTY:

RECOMMENDATION:

We suggest OIS determine which equipment is excess, and immediately
report such excess property to OMS. We further suggest that when
this equipment is declared as excess by OIS, OMS transfer the
equipment to the Forestville storage facility and report it to GSA.


RESPONSE:    AGREE

OIS can and will transfer to OMS equipment that is no longer
needed. According to the current Property Management Directive,
only the PMO (Property Management Officer) can declare items to be
excess, not OIS. The audit report should recognize that
transferring unneeded equipment to OMS and declaring it as excess
is an on-going/never-ending activity.
                                                                    5

TARGET COMPLETION DATE:   Ongoing

B.   LAPTOP CONTROL PROCEDURES:

RECOMMENDATION:

We suggest OIS develop a log-in/out sheet for the laptops assigned
to the staff within OIS as well as laptops returned for repair,
upgrade, etc.

RESPONSE:   AGREE

The Chief of OASD is maintaining a log of laptops assigned to the
staff within OIS as well as laptops returned for repair, upgrade,
etc.

TARGET COMPLETION DATE:   Complete

C.   PROPERTY PASS PROCEDURES:

RECOMMENDATION:

USITC staff and security personnel will be immediately and
periodically thereafter reminded of the policies and procedures
regarding the property pass currently in place.

RESPONSE:   AGREE

TARGET COMPLETION DATE:   Ongoing
